OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS r il,e. *~vyr i
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

1/13/2021

COA No. 05-20-00756-CR
S8! \AA1L iKa
VIOSES, ROBERT ARTHUR ^Tr.\CtTNo!!219,-81377-2015
PD-1166-20
Dn this day, the Appellant's Pro *Se^petition for discretionary review has been
■efused.
Deana Williamson, Clerk
ROBERT ARTHUR MOSES
MCCONNELL UNIT - TDC # 2101342
3001 S. EMILY DR.
BEEVILLE, TX 78102

Chief Justice
Robert D. Burns, III
Justices
Lana Myers
Bill Whitehill
David J. Schenck
Ken Molberg
Leslie Osborne
Robbie Partida-Kipness
Bill Pedersen, Ill
Amanda L. Reichek
Erin A. Nowell
Cory L. Carlyle
David Evans
John G. Browning

Lisa Matz
Clerk of the Court
(214)712-3450
theclerk@5th.txcourts.gov

Court of gppeate
jftftf) ©tetrict of tKcxa-s at ©alias

Susan Fox
Business Administrator
(214)712-3417
susan.fox@5th.txcourts.gov
Internet
www.txcourts.gov/5thcoa.aspx

600 Commerce Street, Suite 200
Dallas, Texas 75202
(214)712-3400

September 29, 2020
Greg Willis
Collin County District Attorney
2100 Bloomdale Rd., Ste. 200
McKinney, TX 75071-8313
* DELIVERED VIA E-MAIL &
POSTAL *
The Honorable Raymond G. Wheless
Presiding Judge, 1st Admin. Jud.
Region
c/o 366th District Court
2100 Bloomdale Rd., Ste. 30146
McKinney, TX 75071
* DELIVERED VIA E-MAIL &
POSTAL *
The Honorable Jennifer Edgeworth
219th Judicial District Court
Collin County Courthouse
2100 Bloomdale Rd., Ste. 20132
McKinney, TX 75071
* DELIVERED VIA E-MAIL &
POSTAL *
RE:

Court of Appeals Number:
Trial Court Case Number:

Style: Robert Arthur Moses
v.
The State of Texas

/4<5? -

)

John R. Rolater Jr.
Asst. Criminal District Attorney
Chief of the Appellate Division
2100 Bloomdale Road, Ste. 200
McKinney, TX 75071
* DELIVERED VIA E-MAIL &
POSTAL *
Robert Arthur Moses
TDCJ# 02101342
McConnell Unit
3001 South Emily Drive
Beeville, TX 78102
Lynne Finley
Collin County District Clerk
2100 Bloomdale Rd., Ste. 12132
McKinney, TX 75071
* DELIVERED VIA E-MAIL &
POSTAL *

05-20-00756-CR
219-81377-2015

Please find attached the Court’s opinion issued today in the above referenced
cause.
Under Rule 48.4, an attorney representing a defendant in a criminal appeal shall,
within five days after the opinion is handed down, send his client a copy of
the opinion and judgment, along with notification of the defendant’s right to
file a pro se petition for discretionary review under Rule 68. This
notification shall be sent certified mail, return receipt requested, to the
defendant at his last known address. The attorney shall also send the court
of appeals a letter certifying compliance with this rule and attaching a copy
of the return receipt within the time for filing a motion for rehearing.
TEX. R. App. P. 48.4. The Court will file the letter in the record of the appeal. Id.
The letter certifying compliance must be filed via eFile Texas.
Respectfully,
/s/ Lisa Matz, Clerk of the Court

2

Dismiss and Opinion Filed September 29,2020

In the

Court of Appeals
Jftfttf Histrfrt of Stexas at Balias
No. 05-20-00756-CR
ROBERT ARTHUR MOSES, Appellant
V.
THE STATE OF TEXAS, Appellee
On Appeal from the 219th Judicial District Court
Collin County, Texas
Trial Court Cause No. 219-81377-2015
MEMORANDUM OPINION
Before Justices Molberg, Carlyle, and Browning
Opinion by Justice Carlyle
Robert Arthur Moses appeals the trial court’s August 6,2020 order dismissing
his emergency motion for release. We dismiss this appeal for lack ofjurisdiction.
After convicting Moses of murder, the jury assessed punishment at life in
prison. A panel of this Court affirmed his conviction and sentence on direct appeal.
See Moses v. State, No. 05-16-01391-CR, 2018 WL 4042359 (Tex. App.—Dallas
Aug. 23, 2018, pet. refd) (not designated for publication). The Texas Court of
Criminal Appeals refused his petition for discretionary review, and our mandate
issued on January 24, 2019.

4 OS-A3

On May 21, 2020, Moses filed an “Emergency motion to release Robert
Arthur Moses who is being unlawfully detained” in the trial court. Moses argues he
became unlawfully detained when he was arrested on February 26, 2015 but not
taken to a magistrate within 48 hours and that therefore, the trial court lost
jurisdiction over him, meaning his trial, conviction, and sentence are “illegal and
void.” See Tex. Code Crim. Proc. art. 15.17. The state argued that the trial
court
should dismiss the motion, which the trial court did. Moses noted his

appeal to this

Court.
Moses’s motion includes a collateral attack on his final felony conviction
based on the unlawful restraint of his liberty. Texas law authorizes challenges to
unlawful restraints on liberty by way of an article 11.07 writ. See TEX. Code Crim.
Proc. art. 11.07, § 3. Texas criminal procedure generally provides that 11.07
be filed on a prescribed form available

writs

https ://www.txcourts. gov/cca/nractice-

before-the-court/forms/ or in Appendix E to the Texas Code of Criminal Procedure.
Only the Court of Criminal Appeals possesses the authority to grant relief in
a post-conviction habeas corpus proceeding where there is a final felony conviction.
Board ofPardons & Paroles ex rel. Keene v. Court ofAppeals, 910 S.W.2d 481
,483
(Tex. Crim. App. 1995); Ex parte Hoang, 872 S.W.2d 694,

697 (Tex. Crim. App.

1993); & parte Alexander, 685 S.W.2d 57, 60 (Tex. Crim. App. 1985). Only the
Court of Criminal Appeals has writ jurisdiction to order

a trial court to rule on a

pending article 11.07 motion. Padieu v. Court of Appeals of Tex., Fifth Dist., 392
-2-

Ap ** -&

S.W.3d 115, 117—18 (Tex. Crim. App. 2013). Mr. Moses’s motion contains some,
but not all of the required components of a writ of habeas corpus. See Tex. Code
Crim. Proc. arts. 11.07, § 3; 11.14. We express no opinion regarding whether the
trial court may take action on Moses’s motion as an 11.07 writ. We express no
opinion on the issues raised in this latest of Mr. Moses’s pro se filings. See Ex parte
Edwards, No. 05-03-00556-CR, 2003 WL 21962575, at *3 (Tex. App.—Dallas Aug.
18, 2003, no pet.) (not designated for publication) (remedy for violating article
15.17’s 48-hour magistration rule is potential suppression of statement of
involuntary confession, not release).1

KM v. Stmt No 05-00-00195-CR, 2000 WL 1694015, at *1 (Tex. App.-Dallas Nov. 14, 20M, no pet)
to suppress)^ f0r pub 'catl0n) ^holdmg that the defendant waived this issue by not raising it in his motion

-3-

f\t> 5- 6 S'

But we lack jurisdiction over a direct appeal from the trial court’s denial of
such a pleading. See TEX. CODE CRIM. PROC. art. 11.07; Ater v. Eighth Court of
Appeals, 802 S.W.2d 241, 243 (Tex. Crim. App. 1991) (orig. proceeding). We
dismiss this appeal.2

Do Not Publish
Tex. R. App. P. 47.2(b)
200756F.U05

/Cory L. Carlyle/
CORYL. CARLYLE
JUSTICE

2 We deny Mr. Moses’s September 14, 2020 “Motion to unseal and release,” filed in this Court. The
documents he seeks to unseal are included in an unsealed volume entitled “Supplemental Clerk’s Record”
in his direct appeal, number 05-16-01391-CR. To the extent necessary for determining the present appeal,
we have taken judicial notice of the record in that appeal.
We have no jurisdiction to address the remaining allegations in this motion because they are challenges
to the legality of Mr. Moses’s confinement and are only properly brought in an 11.07 writ filed in the trial
court. During the litigation of a writ, the trial court may order certain forms of discovery to assist in
developing “controverted, previously unresolved facts which are material to the legality of the applicant’s
confinement.” See TEX. CODE CRIM. PROC. art. 11.07, § 3(d).

-^0%-o 4,

CUnurt of Appeals
Jffiftlj district of tttexas at Balias
JUDGMENT
ROBERT ARTHUR MOSES,
Appellant
No. 05-20-00756-CR

On Appeal from the 219th Judicial
District Court, Collin County, Texas
Trial Court Cause No. 219-813772015.
Opinion delivered by Justice Carlyle.
Justices Molberg and Browning
participating.

V.

THE STATE OF TEXAS, Appellee

Based on the Court’s opinion of this date, we DISMISS this appeal.
Judgment entered this 29th day of September, 2020.

-5-

Order entered October 28, 2020

In The

Court of Appeals:
;lftftf) district of ®exa$ at Dallas?
No. 05-20-00756-CR
ROBERT ARTHUR MOSES, Appellant
V.
THE STATE OF TEXAS, Appellee
On Appeal from the 219th Judicial District Court
Collin County, Texas
Trial Court Cause No. 219-81377-2015
ORDER
Before the Court En Banc
Before the Court is appellant’s October 16, 2020 motion for en banc
reconsideration. Appellant’s motion is DENIED.
/s/

1$-O ]

ROBERT D. BURNS, III
CHIEF JUSTICE

Filed: 8/4/2020 2:21 PM
Lynne Finley
District Clerk
Collin County, Texas
By Donnie Prentice Deputy
Envelope ID: 45085865

No. 219-81377-2015

THE STATE OF TEXAS
v.
ROBERT ARTHUR MOSES

§

§
§
§
§

IN THE
219TH DISTRICT COURT
COLLIN COUNTY, TEXAS

ORDER ON DEFENDANT’S EMERGENCY MOTION TO RELEASE
The Court has considered Defendant’s Emergency Motion to Release and the
State’s Response in Opposition. The Defendant’s motion is DISMISSED. All other
pending requests are DENIED.
8/6/2020

Signed:
Jennifer Edgeworth
Judge Presiding.

Filed: August 7, 2020
Lynne Finley
District Clerk
Collin County, Texas
By: Prentice, Donnie

A*S-o 1

8:38AM

Deputy

Additional material
from this filing is
available in the
Clerk's Office.

